    LEGAL SERVICES CORPORATION

       BOARD OF DIRECTORS




               America’s Partner For
               Equal Justice




SEMIANNUAL REPORT TO THE CONGRESS

          FOR THE PERIOD

 APRIL 1, 2004 – SEPTEMBER 30, 2004



                     NOVEMBER 30, 2004
                                   FOREWORD

       We are pleased to transmit the Semiannual Report of the Legal Services
Corporation (“LSC”) Board of Directors (“Board”), providing comments on the
Semiannual Report of LSC’s Office of Inspector General (“OIG”) for the six-month
period of April 1, 2004, through September 30, 2004, and providing further explanation
of LSC’s activities during the reporting period.

        LSC’s Board recognizes the value of the Inspector General function and remains
committed to working with the OIG to achieve our goal of providing high quality legal
assistance to the poor of our nation.



                                                  ______________________________
                                                  Frank B. Strickland, Chairman
                                                  Legal Services Corporation
                                                  November 30, 2004




                                          i
                                TABLE OF CONTENTS

Message of the Board of Directors .........................................................................1

Background ..........................................................................................................2
      The Legal Services Corporation ..................................................................2
      Funding and Grant-Making Activities .........................................................2

Management Initiatives............................................................................................3
      Competition..................................................................................................3
      Program Visits .............................................................................................4
      State Engagement.........................................................................................6
      Technology Efforts ..................................................................................... 6
      Loan Repayment Assistance Program .........................................................9
      Mentoring Project ........................................................................................9
      Intake..........................................................................................................10
      LSC Resource Initiative.............................................................................10
      Implementation of 2000 Census and the Harkin-Smith Amendment........11
      Evaluation ..................................................................................................11
      Matters .......................................................................................................12
      Diversity, Inclusion and Multi-Cultural Competency ...............................12
      Civil Asset Forfeiture Reform Act.............................................................13
      Rulemaking Activities ...............................................................................13
      Work of the Office of Compliance and Enforcement................................13
      LSC’s Comments on Portions of OIG’s Semiannual Report to Congress.16

Table 1: Management Report on OIG Audit Reports of Grantees
         Issued With Questioned Costs for the Six Month
         Period Ending September 30, 2004 ........................................................18

Table 2: Management Report on Audit Reports Issued
         During the Six Month Period Ending
         September 30, 2004, With Recommendations
         That Funds Be Put to Better Use ...........................................................19




                                                     ii
                    MESSAGE OF THE BOARD OF DIRECTORS


        The Board is pleased to have the opportunity to address the Congress and share its
perspective on the current state of federally-funded civil legal services for low-income
Americans. LSC is in the fifth year of implementation of its Strategic Directions 2000-
2005, the principal goals of which are to increase access to justice and improve the
quality of civil legal assistance on behalf of the needy and less fortunate. While LSC and
its grantees1 continue their efforts to maximize the cost-effective use of limited federal
resources and to leverage those resources to raise funds from state and local governments,
foundations and private sources, the significant unmet need for civil legal assistance in
the United States reminds us starkly that we are far from achieving our national
commitment of "equal justice for all."

        During the reporting period, LSC continued work on important initiatives to
support its grantees and to improve the quality and accessibility of services for the
indigent. These efforts include the continued use of technology to promote and facilitate
access to legal services, particularly through self help efforts. LSC has provided a range
of technological assistance to programs during the reporting period, including assistance
to grantees in evaluating the effectiveness of technology projects such as statewide
websites, and support in the form of ‘circuit riders’ who assist with technology
infrastructure, intake and self help projects. Among LSC’s most recently-funded
technology projects are those that assist pro se litigants in Idaho and Massachusetts to
complete their own pleadings with the assistance of computerized work stations at court
houses.

        Some of LSC’s additional efforts during the reporting period include continued
program visits to assess innovative procedures that may serve as models for other
programs; continued support to help grantees in each state develop comprehensive,
integrated legal services delivery systems; efforts to promote intake systems that
maximize client access to services while effectively using the time and resources of
attorneys; the sharing of information through an LSC Resource Library to promote the
use of innovative ideas and best practices among grantees; continued work to promote
diversity among legal services providers; and efforts to measure all assistance provided
by LSC grantees, as well as the outcomes associated with grantees’ work on behalf of
clients. LSC also continues to monitor its grantees for compliance with federal law and
LSC regulations, working closely with the Office of Inspector General. In addition, LSC
is planning to attempt to address the large student debt loads that frequently dissuade law
graduates from pursuing careers in legal services programs, and to cultivate, train and
encourage a diverse core of future legal services leaders.



1
 ‘Programs’, ‘recipients’, and ‘grantees’ are used interchangeably in this report to refer to recipients of
LSC funding.


                                                       1
                                       BACKGROUND


The Legal Services Corporation
        The Legal Services Corporation is a private, non-profit corporation established in
the District of Columbia by the Legal Services Corporation Act of 1974, as amended
(“the LSC Act”),2 to provide financial support for legal assistance in civil proceedings to
persons unable to afford legal services. LSC is governed by an eleven-member, bi-
partisan Board of Directors appointed by the President of the United States with the
advice and consent of the Senate. The Board appoints LSC’s President, who serves as
LSC’s chief executive officer, subject to general policies established by the Board.

       The 1988 Amendments to the Inspector General Act of 1978 (“the 1978 Act”)
required LSC to establish an Office of Inspector General (“OIG”) and extended specific
provisions of the 1978 Act to LSC. Accordingly, such an office was established by and
for LSC. The Inspector General is appointed by, reports to, and serves under the general
supervision of, LSC’s Board of Directors.

Funding and Grant-Making Activities
        LSC provides funding to civil legal services programs serving indigent persons
throughout the fifty states, the District of Columbia, Puerto Rico, the U.S. Virgin Islands,
Guam, Micronesia and American Samoa. To carry out the purposes of the LSC Act, LSC
received an appropriation of $338,848,000 for Fiscal Year (“FY”) 2004. (This figure was
reduced to $335,282,000 after a government-wide rescission of 0.59%, and a 0.465%
rescission for all Commerce, Justice, State programs were enacted.) For FY 2005, LSC
submitted a budget request for $352,400,000. The four percent (4%) increase would
partially address the increased poverty population in LSC service areas. From 1990 to
2000, the number of people living in poverty increased by 5.74%. However, LSC’s
appropriations have not kept pace with this increase in eligible clients.

        The Commerce, Justice, State, the Judiciary and Related Agencies Appropriations
bill passed by the House of Representatives provides LSC funding in the amount of
$335,282,000, a figure equal to LSC’s post-rescission funding for 2004. The full Senate
has not acted on LSC’s Appropriations measure, but the Senate Appropriations
Committee approved legislation providing LSC with $335,000,000. LSC is currently
operating under a Continuing Resolution, which funds the Corporation at 2004 levels. It
is unclear when a Conference Committee will meet to finalize its recommendations for
funding for FY 2005.




2
    42 U.S.C. §§ 2996-2996l.


                                             2
                                  MANAGEMENT INITIATIVES


        During this reporting period, LSC continued its efforts to improve the efficiency
of its competitive grant award system and the effectiveness of the delivery of legal
assistance to eligible clients. LSC continued to demonstrate its ability to ensure both
compliance with program rules and regulations, and the maintenance of high quality legal
assistance to eligible clients.

Competition
       LSC received and evaluated seventy-three qualified grant applications for ninety-
three service areas in twenty-four states and the Commonwealth of Puerto Rico for
calendar year 2005 grants.3 Of the seventy-three grant applications received, there were
two competing grant applications for service areas MI-14 in Michigan and MA-12 in
Massachusetts.

       Grant applications are evaluated by LSC’s Office of Program Performance
(“OPP”) based on the American Bar Association Standards for Providers of Civil Legal
Services to the Poor, LSC’s Performance Criteria, and LSC regulations. In instances
where there is more than one applicant for the same service area, a review panel is
convened pursuant to 45 CFR §1634.8(a)(5) to assess the capacities of the competing
applicants and to provide a funding recommendation. In these circumstances,
recommendations from both staff and the review panel are presented to the LSC
President.

       Service area MI-14 is a recently reconfigured service area which comprises a
fourteen county area in east-central Michigan. LSC received applications for MI-14 from
Legal Services of Eastern Michigan (“LSEM”), a current grantee, and Lakeshore Legal
Aid (“LLA”), a previous grantee. Prior to March 2003, both applicants were funded by
LSC to provide legal services in the counties that now comprise the reconfigured service
area MI-14.

        OPP staff have reviewed and evaluated the competing grant applications for MI-
14; conducted an on-site assessment of both applicants; and prepared a funding
recommendation. A review panel was also convened in October, just beyond the
reporting period, to conduct an evaluation and prepare a recommendation. The funding
recommendations from staff and the review panel will be presented to LSC’s President
during November 2004.

       LSC received qualified grant applications for service area MA-12 from Legal
Services for Cape, Plymouth and Islands, and from New Center for Legal Advocacy.
3
 Some applications were for more than one service area, e.g., for a Basic Field-Native American area, as
well as for a Basic Field-General Area.



                                                    3
These are the LSC grantees currently funded to provide legal services in the counties that
will comprise service area MA-12 effective January 1, 2005. LSC will follow the same
evaluation procedures for these applications that it followed for the competition for
service area MI-14, identified above.

       The Request for Proposals (“RFP”) for calendar year 2005 grants emphasizes
program quality, legal work oversight, outcomes for clients, strategic planning/needs
assessment, and the need to address the legal problems of all clients, including those with
special access issues, those who are geographically remote, and those with limited
English proficiency.

       In addition to completing a thorough and objective evaluation of the grant
applications, LSC provides each successful grant applicant with a “feedback letter,”
which addresses the potential strengths and weaknesses of the proposed delivery strategy
based on the grant application.

        The competitive grants process has evolved into a useful tool for capacity
building, for identifying areas for further improvement, and for networking legal services
programs. Three of LSC’s foremost objectives in the competitive grants process are 1) to
collect information necessary to determine the capacities of individual legal services
programs; 2) to remain informed about the quality of the legal services delivery system
throughout the country; and 3) to identify best practices which can be used to improve the
provision of services by other grantees. LSC’s fully automated grants system facilitates
the analysis of data received; feedback to applicants on strengths and challenges found in
their applications; and the identification of model practices that can be shared and
replicated as appropriate. In this way, the LSC competitive grants process remains
responsive to the Congressional requirement to award grants through a system of
competition, and to assure the most efficient and effective delivery of services to eligible,
low-income people.

        An overview of the competitive grants process, the 2005 RFP, application
instructions, and resource materials are available at www.ain.lsc.gov.

Program Visits
        During the reporting period, LSC continued visiting programs to assess quality;
provide technical assistance; review progress in achieving a comprehensive delivery
system in recently reconfigured service areas; address problems; evaluate innovative
procedures which may serve as models for other programs; and communicate LSC’s
expectations directly to grantees. These visits expand LSC’s understanding of programs’
activities otherwise gleaned from competition applications, grant activity reports, and
anecdotal information. They also enable LSC to help programs enhance the quality of
services delivered to clients and promote efficiency and effectiveness in delivery systems.

       LSC conscientiously follows up on program visits that it has made in the past.
Typically, LSC staff call programs to check on progress with planned changes.


                                             4
Additionally, after program visits, LSC often provides programs with innovative practice
materials to assist in improving the effectiveness of their delivery systems.

       From April 1, 2004, through September 30, 2004, OPP and related staff and
consultants visited the following seventeen programs: Neighborhood Legal Services
(D.C.); Legal Aid of North Carolina; Legal Aid of West Virginia; Legal Aid Society
(KY); Wisconsin Judicare; Legal Aid of the Bluegrass (KY); Legal Aid of Arkansas;
Legal Services of North West Minnesota; Southern Arizona Legal Aid; DNA-Peoples
Legal Services (AZ); Southern Mississippi Legal Services; Legal Aid of NorthWest
Texas; Rhode Island Legal Services; Idaho Legal Aid; Appalachian Research and
Defense Fund of Kentucky; Inland Counties Legal Services (CA); and Legal Aid of
Orange County (CA).

        When OPP examines program quality, it reviews program operations in areas that
include the establishment of priorities, intake systems, legal work management and
supervision, governance, Private Attorney Involvement, resource development, and
strategic planning, in order to evaluate comprehensively the efficiency and effectiveness
of programs. Post-reconfiguration on-site reviews, which typically occur two years
following the reconfiguration of a service area, involve an assessment of the grantee’s
progress in creating an efficient and effective integrated program that strives to provide
high quality legal assistance. Following an OPP visit, it is customary for LSC staff to
prepare and send a report to the program detailing its findings and recommendations.

         During the reporting period, LSC launched a new protocol for LSC program visits
to more effectively coordinate the work of OPP and the Office of Compliance and
Enforcement (“OCE”). LSC staff from OPP and OCE developed a new visit protocol
that includes an on-site examination of program quality, case management reporting and
case management system issues. The purposes of the new visit protocol are 1) to
minimize the number of visits to LSC grantees through a more efficient process, and 2) to
identify and incorporate new areas of inquiry that represent indicia of quality in legal
services delivery. Some of the quality standards that were identified and examined
during the visits included streamlined and effective case management systems; competent
and motivated staff; peer review; successful local and state resource development;
consistently strong client outcomes; and a high degree of client satisfaction. Other
quality standards under examination included effective leadership; client involvement;
workforce diversity; client accessibility; strategic use of scarce resources to meet the
most critical needs of the client community; effective use of technology; ongoing
training; and continued self-examination. The new protocol was piloted during LSC’s
visit to Legal Services of North West Minnesota in July.

        In addition, in order to facilitate the development of the quality agenda, LSC
convened the first of what will be several conversations with legal services community
leaders in August of 2004. The conversation provided useful ideas on the role that LSC
should play in enhancing program quality and performance.




                                            5
State Engagement
        LSC continues to promote efforts by its grantees to develop comprehensive,
integrated delivery systems that reach a greater number of persons, with a broader range
of services. The State Justice Community Initiative requires grantees to work with other
providers and stakeholders within each state, such as the courts, bar associations, law
schools, and client groups, to assure that a full range of high quality legal services are
available to clients regardless of their geographical location within a given state.

        During this reporting period, LSC staff attended state justice community meetings
in the following ten states: California; Kentucky; Maryland; Minnesota; North Carolina;
Pennsylvania; South Dakota; Tennessee; Texas; and Virginia.

        In 2002, LSC initiated the development of an evaluation instrument designed to
gauge the success of its grantees’ State Planning efforts. The instrument sets forth the
criteria and measures that LSC may use to evaluate the effectiveness of the civil legal
services delivery system within each state. Evaluations also establish benchmarks against
which further progress can be measured, and they allow LSC to gather data to compare
state delivery systems. During this reporting period, LSC conducted an evaluation of the
Maine state justice community.

Technology Efforts
        A major component of LSC’s technology efforts is the administration of the
Technology Initiative Grants program (“TIG”), and the awarding of grants under this
program. The TIG program promotes the use of technology to help grantees provide
assistance to low income persons who would otherwise not receive legal assistance. This
is accomplished by means of technologically enhanced pro se and community legal
education efforts and by enhancing programs’ and state justice systems’ technology
infrastructures to allow centralized telephone intake and delivery systems.

New Grants

        During the reporting period, LSC staff received and reviewed TIG applications
for the 2004 funding cycle. After careful review of all applications, LSC awarded more
than fifty TIG grants. The grants are for infrastructure, intake systems, training and
technical assistance, pro se technology efforts and website development.

       The following are brief summaries of grants awarded during the reporting period,
which have significant potential for expanding assistance to the poor.

   •   Legal Services of Northern Michigan: This project, which is also supported by
       the Michigan State Bar Foundation, will allow low income users of the funded
       website to ask questions of pro bono attorneys anonymously. Indigent persons
       may also use the system to request representation from local legal services
       programs.


                                            6
   •   Massachusetts Justice Project: This grant expands the Interactive Community
       Assistance Network (“I-CAN”) system into the housing courts of Massachusetts.
       Currently 90% of tenants in Massachusetts housing courts have no legal
       assistance. The goal of the Massachusetts Justice Project (“MJP”) is to provide
       families facing eviction with litigation support and real time hotline advice that
       enables them to effectively represent themselves. The courthouse work stations
       created by this project will allow many low-income clients to complete required
       court filings, including answers to eviction pleadings, by using a touch-screen
       program offering directions in English or Spanish. Litigants will also be able to
       access real-time video and telephone support from MJP’s experienced advocates.

   •   Montana Legal Services: This grant funds a “Live Help” feature on Montana’s
       statewide legal aid website (www.montanalawhelp.org). The site exists to help
       pro se litigants find legal information and complete court forms online when they
       cannot secure legal representation. The “Live Help” feature will allow users to
       initiate an online or telephone conversation with a “virtual volunteer” – an
       attorney, paralegal, bar employee, or law student who can help clients use the
       internet to effectively represent themselves in civil proceedings in court. Nearly
       every state has a statewide legal services website, but Montana will become the
       first state to offer “virtual legal assistance” as a result of this grant.

   •   Idaho Legal Aid Services: This TIG grant will enable Idaho Legal Aid Services
       advocates to work with the state judiciary and other partners to automate more
       than 300 court-approved forms to assist pro se litigants who cannot afford legal
       counsel. Tens of thousands of low-income Idahoans who were previously unable
       to file complaints or answers will be able to have their day in court as a result of
       the online system created by this grant. The automated system will require no
       legal expertise. It will ask users simple questions in English or Spanish and then
       produce properly formatted court forms that can be filed in a local Idaho court.

Progress on Prior TIG Grants

        The following is an update on a TIG project which LSC has previously discussed
in its Semiannual Reports to Congress:

   •   The multimedia project undertaken by Land of Lincoln Legal Assistance
       Foundation (IL) is near completion. Two 2004 TIG projects will add tools
       developed by the Illinois Technology Center to the statewide website templates,
       so that multi-media content can be more easily delivered to users. For example,
       presentations at pro se clinics may be recorded with a low cost camcorder, and
       then made available in streaming video over the statewide website for other low-
       income persons in need of legal assistance. This holds great promise for assisting
       many low-income persons, and in particular for making more content available to
       those who are visually impaired or for whom English is a second language. For
       example, DNA – Peoples Legal Services in Arizona, the program serving the


                                            7
       Hopi and Navajo Indian Reservations, will use this same technology to deliver
       legal information through their website to people who live on the reservations.

Evaluation, Training & Other TIG Staff Activities

        In addition to implementing the 2004 competition process and overseeing the
existing grants, LSC TIG staff have continued to work on evaluation of their grants,
participated in training events, and further refined the TIG management system.

        LSC places significant emphasis on the evaluation of TIG grants because many
TIG grants are innovative, and by definition, untested. LSC’s evaluation system for the
client, advocate and pro bono websites is fully operational, and includes evaluation
instruments and an online reporting system. In developing these systems, LSC built on
the work accomplished through the TIG-funded Technology Evaluation Project, which
incorporated significant input from TIG grantees and others. LSC is now refining
databases to compile and analyze the evaluation results and to produce reports
summarizing and profiling key findings. The evaluation systems can be reviewed at:
http://www.lri.lsc.gov/sitepages/tech/tech_eval_tig.htm.

         In the 2003 grant cycle, LSC funded a “circuit rider” to provide evaluation
assistance to 2002 and 2003 grantees operating infrastructure, intake and pro se projects.
This project provides online trainings, resource materials and telephone and online
assistance to all grantees, and it ensures that intensive assistance is provided to grantees
that need it. During the reporting period, TIG staff continued to provide evaluation
assistance directly to the grantees operating the 10 projects funded in 2002 and 2003 that
are not website grants and that are not included in the services provided by the evaluation
circuit rider. TIG staff also provided evaluation assistance to 2001 grantees that have not
yet completed their evaluation requirements.

        LSC TIG staff continue to provide training to legal services providers and made
the following presentations at the Equal Justice Conference in Atlanta, Georgia in April
2004: LSC staff co-presented the TIG Affinity Session; they presented a session entitled
“Fear and Loathing in Cyberspace: Overcoming Technophobia in Your Staff”; and they
presented a session entitled “Technology Tips and Tools, 50 Ways to Work Better, Faster
and Cheaper.”

       During the reporting period, TIG staff worked on streamlining the grant
application and management processes. In the first half of fiscal year 2004, TIG staff
implemented a new full service grants management package. They are also working to
connect the flow of data from online systems to the grants management package.

        TIG grants are building a structure that permits income-eligible clients to get
advice and brief services through centralized intake systems, and legal education
materials through websites. These grants also enable LSC-funded programs to benefit
from the productivity that results from technologically-sophisticated infrastructures. By
carefully monitoring the TIG grants and overseeing project evaluations, LSC is assessing



                                             8
the extent to which technological approaches can increase the quantity and quality of
services provided to clients.

Loan Repayment Assistance Program
        The burden of law school debt, which can average as much as $80,000, often
prevents recent graduates from entering or remaining in a career in legal services, where
the starting salary nationally is around $33,000 a year.

        In an effort to determine how LSC can best help its grantees address the
difficulties of recruiting and retaining staff attorneys that have substantial law school
debt, LSC President Helaine Barnett appointed an LSC Task Force on Loan Repayment
Assistance Program (“LRAP”). A small group of individuals who have extensive
experience and knowledge with LRAPs, including representatives from the American Bar
Association, the National Legal Aid and Defender Association, Equal Justice Works,
LSC grantees, law school representatives, state bar leaders and Interest on Lawyers’ Trust
Accounts (“IOLTA”) directors, agreed to serve on the Task Force and met in Washington
D.C. in August of 2004. The Task Force will help LSC design an LRAP Pilot Program
that will be particularly helpful to LSC grantees with the recruitment and retention of
attorneys in their programs who are in need of loan repayment assistance. The Task
Force will also help to establish the most effective way to collect and analyze the data
necessary to determine the Pilot Program’s effectiveness in the recruitment and retention
of local, LSC-funded program staff. Assuming funding, LSC plans to have the Pilot
Project underway in 2005.

        LSC is hopeful that the FY2005 appropriations bill recently passed by the House
of Representatives, which includes language permitting the Corporation to implement an
LSC Pilot LRAP, will be enacted. LSC is grateful to the Chairman of the House
Commerce-Justice-State subcommittee, Frank Wolf, who has led the effort on this
important project. LSC also appreciates the assistance of Congressmen Serrano and
Obey, who have provided significant support for this endeavor. The Pilot LRAP will not
be possible without Congressional approval to use the funds for this project. LSC greatly
appreciates the OIG’s support in this regard. LSC looks forward to making it possible for
young lawyers who want to work in legal services programs to do so through LRAP
assistance.

Mentoring Project

        At the June 2004 meeting of LSC’s Board of Directors, a presentation was made
by LSC’s Advisory Council on Leadership and Diversity to establish a pilot program to
nurture and develop new leaders in the legal services community throughout the country.
The Board directed LSC staff to develop further a mentoring pilot project. The goals of
the program will include cultivating, training and encouraging a core of future leaders in
the legal services community, with an emphasis on diversity, inclusiveness, and the
acquisition of meaningful leadership skills. Among other responsibilities, LSC staff
working on this project will identify a diverse group of candidates to participate in this


                                            9
effort, and design and implement a program of leaning and development that will result
in a diverse group of skilled, future leaders.

Intake
       During the reporting period, LSC increased its efforts to promote the use of
telephone intake, advice and referral systems by grantees. These delivery systems
maximize client access and high quality legal services. They help to coordinate program
operations and management, simplify application procedures, expedite responses, and
allow staff to concentrate on legal problems requiring more extensive representation.

        LSC’s Office of Program Performance Intake Focus Team assists grantees and
LSC staff with the implementation and management of telephone delivery systems. The
team assists with all stages of the development of such systems. This assistance
frequently includes responding to questions about staffing, office location, telephone and
computer technologies, program-wide coordination, and collaboration with community
partners. In addition to helping establish new intake systems, the Intake Focus Team
assists grantees in improving existing telephone intake systems. During this reporting
period, the Team provided technical assistance to programs in California; Connecticut;
Montana; New York; and Wisconsin.

LSC Resource Initiative
         LSC continues to promote high quality legal assistance through the cross-
fertilization of good ideas and practices in the legal services community. To further this
goal, the Office of Program Performance (“OPP”) oversees the LSC Resource Initiative
(“LRI”), a project that has successfully gathered information about innovative legal
services management approaches and delivery techniques since its inception in June
2001. The website that supports this initiative -- the LSC Resource Library -- has been
online since October 2002, and can be viewed at http://www.lri.lsc.gov.

       Some of the topics featured on the website include technology, diversity, intake,
and management practices. Noteworthy practices of many LSC grantees are featured on
the LSC Resource Library website. To avoid duplication, the website links to several
other websites and existing sources of information. The website also includes
announcements and training opportunities available to the legal services community. LRI
staff members continuously add content to the website and look for ways to make
improvements to the Library. Staff members distribute an LRI newsletter that shares
content from the website and seeks suggestions and submissions.

        In June 2004, OPP completed an evaluation of LRI. An electronic survey was
developed to ensure that LRI is addressing the needs of its website users. The survey was
distributed to LSC staff, Executive Directors of LSC programs, and field experts with
specific knowledge about various aspects of the website. Of those who responded to the
survey, 87% indicated that the LRI has helped to support and improve their work. The



                                           10
survey also produced suggestions to increase the content provided on the LSC Resource
Library.

Implementation of 2000 Census and the Harkin-Smith Amendment
       LSC’s appropriation act requires that it distribute funds for each geographic area
on a per capita basis relative to the number of individuals in poverty determined by the
Bureau of the Census to be within a given geographic area. The Bureau of Census
released the 2000 Census poverty population data in the summer of 2002.

       Full implementation of the new Census numbers would have caused
approximately half of LSC grantees to lose funding, while the other half would have
gained. Under the Harkin-Smith Amendment, LSC received an additional $9.5 million
for FY 2003, to mitigate somewhat the Census-related losses to grantees. These funds
were projected to reduce the losses by approximately half. As a result of a 0.65% across-
the-board rescission included in the final FY 2003 appropriation, however, the actual
funding restored was somewhat less than 50%.

        For FY 2004, the House proposed to resume the allocation of Basic Field-General
funding based solely on the Census poverty population, while the Senate version included
nearly the same funding, but continued to allocate a sum to mitigate the funding
reductions for programs that lost poverty populations in the last decade. The final
version of LSC’s FY 2004 appropriation provided $2.5 million to be “equitably
distributed to the ten states most negatively affected by recent census-based
reallocations.” After careful consideration of the issues and consultation with appropriate
members of Congress, LSC distributed the funds among the states that had the largest
loss of actual dollars. Applying this standard, LSC allocated the additional $2.5 million
to the following states: Illinois; Iowa; Kentucky; Louisiana; Michigan; Minnesota;
Mississippi; Ohio; Puerto Rico; and Wisconsin.

        For FY 2005, the LSC budget request proposes that funding be distributed solely
on the basis of the 2000 Census poverty population, with no adjustment based on prior
year funding numbers. The House appropriations bill provides solely for Census-based
funding, but the Senate bill again includes a provision for $2,849,000 for continuation of
the Harkin-Smith funding for Census adjustments. It is unclear as to when the
differences in the two bills will be reconciled.

Evaluation
        As noted above in the sections on Competition, Program Visits and Technology,
many of LSC’s efforts are focused on evaluating the effectiveness of its grantees. Most
of LSC’s evaluations are based on defined standards and entail measuring the extent to
which programs and projects meet either external standards or internal goals. In the last
eighteen months, LSC has attempted to add the measurement of ‘outcomes for clients’ to
its range of evaluation tools.



                                            11
        In keeping with these efforts, LSC sponsored “Outcomes Summit II,” a
conference held in Cincinnati, Ohio from June 24 - 26, 2004. The conference convened
practitioners from LSC-funded programs who have designed and are implementing
outcomes measurement efforts. In her opening remarks at the conference, LSC President
Helaine Barnett asked the participants for guidance on ways to measure performance and
outcomes in furtherance of LSC’s focus on quality. The participants gave many helpful
suggestions of ways to obtain useful information and to train and assist programs to
measure the achievement of their goals. Among other suggestions, they encouraged the
collection of client success stories as a way to disseminate information on successful
results. LSC will soon issue a report on the conference and formulate its future plans
with regard to this effort.

Matters
       The Matters Service Reports (“MSR”) track the significant “non-case” services
provided by grantees (e.g., community legal education, referrals, self help clinics, and pro
se information), through which grantees do not provide legal representation, but
nevertheless provide valuable services to the indigent community. Until the initiation of
the MSR, there was no reporting of such services to LSC. The MSR augments the Case
Service Reports (“CSR”) system that has been used to measure and report the number
and types of cases closed by LSC grantees each year.

        The online MSR reporting system has continued to function smoothly, and in
March 2004, LSC received calendar year 2003 MSR’s from grantees with no major
problems. LSC received a total of 155 reports including information from all current
grantees. Based on its experience with the receipt of these reports in 2004, LSC has
made minor adjustments to the Matters reporting system for the 2004 data to be received
in March 2005. Additionally, in capturing data on Matters handled by grantees, LSC is
separating the internet-based Matters from other types of Matters, as the internet-based
Matters are harder to quantify where screening methods can only measure visits to a
website and do not exclude multiple visits by the same person.

Diversity, Inclusion and Multi-Cultural Competency
        During this reporting period, LSC continued to support grantees and the broader
legal services delivery system by promoting the importance of diversity. Relying on its
training module, “Leadership and Diversity: The Link That Promotes Effective Delivery
of Legal Services,” LSC continued to provide experienced facilitators for diversity
training sessions with its grantees. During the reporting period, LSC provided this form
of assistance to two grantee Boards of Directors. Shortly after the reporting period, LSC
also provided a day-long diversity training at the Midwest Legal Administrators’
Conference.

       During the reporting period, LSC refined its guidance for grantees on the
provision of legal services to individuals with limited English proficiency. An increasing
number of clients throughout the country do not speak or read English well, if at all.


                                            12
LSC’s grant assurances require that grantees examine and devise delivery strategies and
procedures to overcome the access barrier of limited English proficiency. A program
letter instructing grantees and guidelines to help grantees meet these challenges will be
issued before the end of the year.

Civil Asset Forfeiture Reform Act
       During the year 2000, President Clinton signed into law the Civil Asset Forfeiture
Reform Act (“CAFRA”), Pub. L. 106-185, 114 Stat. 202. Among other things, CAFRA
provides that indigent persons whose homes are subject to civil forfeiture shall be entitled
to be “represented by an attorney for the Legal Services Corporation.” Although the
CAFRA provision involving LSC became effective in 2000, LSC only received one
request from court personnel for representation in a relevant case prior to 2003. During
the reporting period, however, LSC received several additional requests for
representation for cases in California and Wisconsin. LSC has responded to each such
request by evaluating if statutory counsel is appropriate, and if so, obtaining skilled
counsel from the appropriate jurisdiction for each eligible client.

Rulemaking Activities
        During this reporting period, LSC resumed consideration of the open rulemaking
on its regulation on financial eligibility, appearing at 45 CFR Part 1611. Action on the
rulemaking had been deferred pending the appointment and confirmation of a number of
new members of the LSC Board of Directors and the appointment of a new LSC
President. LSC anticipates issuing a new proposed revision to the Part 1611 regulation
during the next reporting period.

Work of the Office of Compliance and Enforcement
        LSC’s Office of Compliance and Enforcement (“OCE”) is charged with a number
of functions which ensure that recipients are in compliance with the LSC Act and
Regulations. These obligations currently include complaint investigations, prior
approvals of some expenditures of LSC funds by grantees and activities by grantees, on-
site visits to examine compliance with regulations, and the provision of technical
assistance and training to recipients.

On Site Visits

       From April 1, 2004, to September 30, 2004, OCE made visits to the following
programs for the purpose of assessing Case Service Reporting (“CSR”) and Case
Management Systems (“CMS”): DNA -- Peoples Legal Services (AZ); Southeast
Louisiana Legal Services Corporation; Pine Tree Legal Assistance (ME); New Mexico
Legal Aid; Legal Aid of Northwest Texas; Prairie State Legal Services (IL); Wisconsin
Judicare, Inc.; and the Legal Aid Society of Hawaii. After making CSR/CSM visits to
programs, OCE sends reports of its findings to the programs. Two such reports were
issued during the reporting period, and the remainder are being completed. During the


                                            13
reporting period, OCE also visited Legal Services of Delaware to follow-up on a previous
CSR/CMS visit.

       OCE provided accountability training on CSR and LSC regulations to the
following programs during the reporting period: DNA -- Peoples Legal Services (AZ);
Potomac Legal Aid Society (VA); Legal Aid Society of San Diego, Legal Aid Society of
Orange County, Inland Counties Legal Services, and Legal Aid Foundation of Los
Angeles; and Neighborhood Legal Services Program of the District of Columbia.

        OCE provided training on compliance with LSC regulations to new Executive
Directors at the Legal Aid Society of San Diego, Legal Aid Society of Orange County,
Inland Counties Legal Services, and Legal Aid Foundation of Los Angeles during the
reporting period.

        In response to complaints received, OCE made visits to two programs during the
reporting period. The first visit was to Legal Aid of the Bluegrass (KY). No violation
was found, and the investigation was closed in October 2004. The second complaint-
related visit was made to the South Carolina Centers for Equal Justice, to follow up on
the findings of a prior complaint investigation. A final letter was issued to the program
advising that the majority of the identified corrective actions have been completed.

        During the reporting period, OCE also made a visit to Legal Services of
Northwest Minnesota to conduct a quality review of casework and systems in conjunction
with LSC’s Office of Program Performance (“OPP”). A Draft Report is being prepared
to send to the program.

A-50 Follow-Up

        During the reporting period, twenty findings were referred for A-50 follow-up.
Management has reviewed and closed all but one referred finding. The outstanding
referral, involving Wyoming Legal Services’ policies implementing LSC regulations, is
pending as LSC awaits a response to its request to the program for certification of
corrective action taken.

Prior Approval Under 45 CFR Part 1630

       During the reporting period, OCE approved nine requests totaling approximately
$355,888 to lease or purchase personal/non-expendable property; one request totaling
$47,000 to renovate real property; and three requests totaling $2,470,000 to purchase real
property pursuant to 45 CFR Part 1630.

Private Attorney Involvement Under 45 CFR. Part 1614

       LSC’s Private Attorney Involvement (“PAI”) regulation, 45 CFR Part 1614,
requires that all recipients devote an amount equal to at least 12.5% of their respective
Basic Field Grants to involve private attorneys in the delivery of legal assistance to



                                           14
eligible clients. A provision of this regulation, 45 CFR § 1614.6, allows recipients to
request either a partial or complete waiver of this requirement in circumstances in which
they have been unable to meet the obligation during a given year. If a recipient’s
circumstances warrant a waiver, OCE will either waive the requirement and adjust the
requirement for that year by the amount of the shortfall, or increase the next year’s
requirement by the amount of the shortfall. During the reporting period, OCE granted
two full waivers and one partial waiver pursuant to 45 CFR § 1614.6. In addition, four
waiver requests were denied due to the untimely submission of the requests. The
requested waiver amounts will be added to the programs’ 2004 PAI requirements.

        All follow-up on PAI compliance is conducted during the review of the
recipient’s audit report for the following grant year, and if necessary, the PAI program is
reviewed as part of the CSR/CMS review.

Subgrants Under 45 CFR Part 1627

       Pursuant to 45 CFR § 1627.1, a recipient may subgrant a portion of its LSC
funding to another entity to conduct certain activities related to the recipient’s
programmatic activities. Such activities include those that would otherwise be
undertaken by the recipient itself, such as representation of eligible clients, or activities
that provide direct support to a recipient’s legal assistance activities, such as a PAI
component.

       OCE approved seventeen recipient subgrants during the noted time period.

Fund Balances Under 45 CFR Part 1628

        LSC recipients whose annual audits report fund balances in excess of 10% of their
total LSC annualized support, are required to request a waiver from LSC pursuant to 45
CFR § 1628.4, in order to carry over the excess balance to the following year. Recipients
may request a waiver to retain fund balances in excess of 25% percent of LSC support
only for extraordinary and compelling reasons. In the absence of a waiver, LSC is
required to recover the excess fund balance pursuant to 45 CFR §1628.3.

        During the reporting period, OCE granted twelve fund balance waiver requests
totaling $677,357.

        When OCE grants a fund balance waiver, it informs the relevant program that the
excess fund balance should be reported separately in the recipient’s next audit, either as a
separate fund or by a supplemental schedule in the audit report. The separate reporting is
by line item to show exactly how the excess fund balance was spent. OCE ensures that
the excess fund balance is reported appropriately through its review of the recipient’s
annual audit.




                                             15
Complaint Investigations

         OCE is responsible for the review, investigation and disposition of complaints
filed by members of the public (e.g., applicants, clients, local recipients, staff and Board
members, opposing counsel/parties, taxpayers, etc.) related to the activities of LSC
recipients. During the reporting period, forty-seven such complaints were closed. The
majority of the complaints closed during the reporting period involved denial of services
(i.e., complaints from applicants who were financially ineligible, outside of program
priorities, or requesting assistance with fee-generating cases or other cases prohibited by
Congressional restrictions).

Audit Reports

        The fiscal year cycle adhered to by LSC grantees differs from program to
program. While the majority of grantees operate on the fiscal year cycle that ends on
December 31st of each year, others adhere to cycles that end on January 31st, March
31st, May 31st, June 30th, or September 30th respectively. LSC grantees must submit
their audit reports (including audited financial statements) to LSC’s OIG within 120 days
of the end of their respective fiscal years.

        The OIG ensures that all grantees submit their audit reports to LSC in a timely
fashion. OCE then reviews the audited financial statements for compliance with the
Accounting Guide for LSC Recipients (issued in August 1997) and LSC financial-related
regulations (i.e., 45 CFR Parts 1610, 1614, 1627, 1628, 1630, 1631, and 1642).

        After the OIG reviews and processes grantees’ audit reports in its audit tracking
system (“AIMS”), a copy of each grantee’s audit report is sent to OCE. During the
reporting period, OCE reviewed fifty-seven audit reports forwarded to it by the OIG.

LSC’s Comments on Portions of OIG’s Semiannual Report to Congress
Program Integrity Audit of California Rural Legal Assistance

        On page 2 of its Semiannual Report to Congress April 1, 2004 – September 30,
2004, LSC’s Office of Inspector General (“OIG”) discussed an audit report that it issued
to California Rural Legal Assistance (“CRLA”) during the previous reporting period (i.e.,
October 1, 2003 – March 30, 2004). As noted in its report for this period, the OIG
recently closed the audit and accepted CRLA’s corrective action plan. The OIG has
referred to LSC management a request for clarification and additional guidance for
grantees regarding issues that arose during the audit involving the program integrity
regulation found at 45 CFR 1610, and the client identity and statement of facts regulation
found at 45 CFR 1636. LSC has worked cooperatively with the OIG to provide guidance
on program integrity that is in keeping with the Congressional intent underlying the
program integrity restrictions. LSC will continue to work cooperatively with the OIG to
develop additional guidance, if it is deemed appropriate, that ensures that grantees
maintain objective integrity and independence from organizations engaged in restricted


                                            16
activities, without unduly hampering the ability of grantees to provide legal services to
the poor in keeping with LSC regulations. In developing such additional guidance, LSC
will ensure that all direction to grantees complies with the Supreme Court decision in the
case of Legal Services Corporation v. Velazquez, 531 U.S. 533 (2001).

The OIG Mapping Project

        On pages 6 through 11 of its report for this period, the OIG discusses its
evaluation of legal services mapping to promote efficiency and effectiveness in the
activities and operations of LSC and its grantees. On page 11 of the report, the OIG
notes that by the end of the next reporting period, it plans to complete a second phase
summary report and transfer the project to LSC Management, with a recommendation
that LSC further develop legal services mapping for program performance evaluation and
provide wider availability of mapping to its grantees. LSC management has been
supportive of the initial OIG mapping project that was designed to provide programs with
mapping tools to better evaluate their program performance in the context of their
program goals and priorities. LSC is aware of the potential opportunities for improved
effectiveness through the use of mapping technologies and will carefully study the OIG’s
forthcoming report and recommendations.




                                           17
                                       TABLE 1

                               Management Report on
               Office of Inspector General Audit Reports of Grantees
                            Issued With Questioned Costs
                              For the Six Month Period
                             Ending September 30, 2004


                                                      Number of        Disallowed
                                                       Reports           Costs
A. Audit Reports for which final action had not
   been taken by the commencement of the                  0               $0
   reporting period.

B. Audit Reports on which management
   decisions were made during the reporting               0               $0
   period.

   Subtotals (A + B)                                      0               $0

MINUS:

C. Audit Reports for which final action was
   taken during the reporting period:                     0               $0

      (i)    Dollar value of disallowed costs
             that were recovered by management
             through collection, offset, property
             in lieu of cash, or otherwise.               0               $0

      (ii)   Dollar value of disallowed costs
             that were written by management.             0               $0

D. Audit Reports for which no final action has
   been taken by the end of the reporting period.         0               $0

   Audit Reports for which no final action had
   been taken within six months of issuance               0               $0




                                           18
                                        TABLE 2

              Management Report on Audit Reports Issued During
               The Six Month Period Ending September 30, 2004,
     With Recommendations That Funds Be Put to Better Use By Management
                     Agreed to in a Management Decision

                                                    Number of             Dollar
                                                     Reports              Value
A. Audit Reports for which final action had not
   been taken by the commencement of the               0                   $0
   reporting period.

B. Audit Reports on which management
   decisions were made during the reporting            0                   $0
   period.

   Subtotals (A + B)                                   0                   $0

MINUS:

C. Audit Reports for which final action was
   taken during the reporting period:                  0                   $0

   (i)     Dollar value of recommendations that
           were actually completed.                    0                   $0

   (ii)    Dollar value of recommendations that
           management has subsequently
           concluded should not or could not be
           implemented or completed.                   0                   $0

D. Audit Reports for which no final action has
   been taken by the end of the reporting period.      0                   $0

  Audit Reports for which no final action had
  been taken within six months of issuance.            0                   $0




                                            19
